TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
                            Office of Inspections and Evaluations




                To Prevent the Possible Widespread Abuse of
                  Religious Compensatory Time, Additional
                            Controls Are Needed



                                        February 27, 2009

                             Reference Number: 2009-IE-R002




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          February 27, 2009


 MEMORANDUM FOR DEPUTY COMMISSIONER, OPERATIONS SUPPORT



 FROM:                       R. David Holmgren
                             Deputy Inspector General for Inspections and Evaluations

 SUBJECT:                    Final Inspection Report – To Prevent the Possible Widespread Abuse
                             of Religious Compensatory Time, Additional Controls Are Needed
                             (2009-IE-R002)

 This report presents the results of our inspection to determine whether employees have accrued
 large religious compensatory time (RCT) balances or received large advances of RCT beyond
 the intended legal purpose.

 Impact on the Taxpayer
 Taxpayers’ confidence in the integrity of the Internal Revenue Service (IRS) could be
 jeopardized if IRS employees abuse the RCT provisions for personal gain. Additionally, if the
 IRS does not properly control the accrual and use of RCT, the IRS has to compensate separated
 employees with a RCT balance. The funds to compensate them for the RCT come from program
 operating budgets.

 Synopsis
 During the past several years, various Federal agencies have encountered some employees who
 have abused RCT. The IRS noted in March 2006 that some of its employees were carrying large
 amounts of RCT. TIGTA initiated this inspection to determine if actions have been taken to
 address the issues identified in March 2006. We found that 42 percent of the employees the IRS
 identified in March 2006 still had excessive balances as of February 2008. Additionally, we
 found that about 2.6 percent of all IRS employees had either a positive or negative RCT balance,
 including 86 employees that had balances we considered to be excessive.
                     To Prevent the Possible Widespread Abuse of Religious
                      Compensatory Time, Additional Controls Are Needed




While the issue of excessive balances is not widespread within the IRS, the accumulation of
excessive RCT balances increases the risk that it may be used for unintended purposes. This
includes earning the RCT and not routinely using it in order to receive a lump sum payment upon
separation or retirement, using RCT instead of sick leave, or possibly using RCT to avoid pay
limitations.
The IRS has taken some steps to improve controls applicable to RCT. The IRS formed a task
force in March 2008 to study the issues and publicized requirements and issued managerial
guidance in June and September 2008. We believe, however, some additional actions would
further strengthen the controls to deter and prevent abuse.

Recommendations
We recommend that the IRS Human Capital Officer revise RCT procedures to require all
requests for RCT be submitted in writing, take steps to ensure that advance RCT is repaid in a
timely manner, and ensure that both employees and managers receive training on the proper use
of RCT and the potential for abuse. We further recommend that the IRS Human Capital Officer
work with the Chief, Agency-Wide Shared Services (AWSS) to create a process to generate a
semiannual report of employees with excessive RCT balances and require that IRS operating
divisions and business units document the actions they will take to address the excessive
balances.

Response
IRS management agreed with our recommendations in principle, although they proposed slightly
different corrective actions to two of our recommendations. We accept those actions as being
reasonable alternatives.
The IRS Human Capital Officer plans to revise IRS policies related to the use and management
of RCT. The IRS will work to develop a multi-prong approach to RCT, leave, and hours of duty
by revising its internal manual; and developing web-based training and guidance consistent with
the revised RCT polices. AWSS will prepare a semiannual report that lists employees with
excessive RCT balances; and the senior executive for each operating division and business unit
will be responsible for ensuring adequate controls are in place to address excessive balances.
Management’s complete response to the draft report is included in Appendix IV.
If you have any questions related to this report, please contact me at (202) 927-7048 or Phil
Shropshire, Director, Inspections and Evaluations, (202) 622-5951.




                                                                                                 2
                             To Prevent the Possible Widespread Abuse of Religious
                              Compensatory Time, Additional Controls Are Needed




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 2
          Possible Abuse of Religious Compensatory Time
          Appears to be Limited...................................................................................Page 2
          Some Employees Have Accumulated Excessive Positive and Negative
          Religious Compensatory Time Balances, Increasing the Risk of Abuse......Page 3
          Internal Revenue Service Staff are Acting to Address These Issues,
          But More Actions Should be Considered .....................................................Page 7
                    Recommendation 1:..........................................................Page 7

                    Recommendations 2 through 5:...........................................Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology .......................Page 10
          Appendix II – Major Contributors to This Report .......................................Page 11
          Appendix III – Report Distribution List ......................................................Page 12
          Appendix IV – Management’s Response to the Draft Report .....................Page 13
        To Prevent the Possible Widespread Abuse of Religious
         Compensatory Time, Additional Controls Are Needed




                   Abbreviations

AWSS         Agency-Wide Shared Services
IRS          Internal Revenue Service
OPM          Office of Personnel Management
RCT          Religious Compensatory Time
TIGTA        Treasury Inspector General for Tax Administration
                       To Prevent the Possible Widespread Abuse of Religious
                        Compensatory Time, Additional Controls Are Needed




                                         Background

In 1978, Public Law 95-3901 was enacted, allowing Federal employees to modify their work
schedules to work compensatory time in order to take time off for religious observances without
being forced to lose pay or use annual leave. The time off from work is referred to as religious
compensatory time (RCT). Employees may work the RCT before or after the religious
observance.
Although RCT is to be used only for religious observances, some Federal employees have
abused RCT by using it for nonreligious purposes. In 2002, the Naval Inspector General
reported that two top level executives at the Naval Undersea Warfare Center used hundreds of
hours of RCT for nonreligious purposes, such as for a vacation to go sightseeing in Germany and
time off to attend a golf tournament. Both employees routinely used RCT instead of their annual
leave. It is reported that by doing so over several years, their annual leave balances grew to
several thousand hours which, upon their retirement, could have been worth $195,000 to one of
them and $250,000 to the other. Similar abuse was identified in 2007 when congressional
investigators reported that numerous Food and Drug Administration employees were allowed to
accumulate excessive RCT balances and many were paid for the unused RCT when they retired
or changed jobs.
In 2006, the IRS Agency-Wide Shared Services (AWSS) staff (responsible for the IRS’s
timekeeping system) identified 43 IRS employees who had balances of 100 or more hours of
RCT. Memorandums identifying the employees and their balances were sent to the heads of the
affected operating divisions and business units. The memorandums listed the number of hours
credited to the employees and how much RCT they had used in the past year. They also
reiterated the IRS policies that RCT was intended for religious observances only, and was not to
be accrued until retirement and then converted to a lump sum payment.
Our inspection was performed to determine if IRS employees still carried excessive RCT
balances that could be used for unintended purposes. This inspection was performed in the
offices of the IRS Human Capital Officer (responsible for IRS-wide employee pay and benefits
policies) and AWSS at the IRS National Headquarters in Washington, D.C. and in the AWSS
office in Memphis, TN, during the period May 2008 through November 2008. This review was
performed in accordance with the President’s Council on Integrity and Efficiency Quality
Standards for Inspections. Detailed information on our inspection objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in Appendix
II.

1
 Federal Employees Flexible and Compressed Work Schedules Act of 1978, September 29, 1978,
92 Stat. 755, 762
                                                                                             Page 1
                           To Prevent the Possible Widespread Abuse of Religious
                            Compensatory Time, Additional Controls Are Needed




                                                           Results of Review

Possible Abuse of Religious Compensatory Time Appears to be
Limited
Religious compensatory time (RCT) should only be earned and used for planned religious
observances. A RCT balance can be either negative or positive. A negative balance occurs
when an employee takes time off from work for a religious observance before working the extra
hours required to make up for time away from work. A positive balance occurs when an
employee works extra hours before taking time off for a religious observance. Federal
regulations and other guidance have been issued to help ensure employees only use RCT for
intended purposes.
As of February 2008, only 2,764 employees had an RCT balance. This is approximately
2.6 percent of the IRS workforce, which numbered approximately 104,864 employees at that
time. While the percentage of IRS employees with RCT balances is fairly low, it is higher than
that of other bureaus within the Department of the Treasury. The percentages at other bureaus in
the Treasury ranged from 0 to 1.3 percent. Figure 1 illustrates the distribution of RCT balances
within the IRS.
         Figure 1: Distribution of Religious Compensatory Time Balances

                                                                                                1389

                                           1400
                                                                                  1128
                                           1200
                     Number of Employees




                                           1000

                                           800

                                           600

                                           400
                                                                                                             112
                                                                       49                                                 70
                                           200            16

                                             0
                                                  -80 or Less   -40 to -80   -1 to -40      1 to 40    40 to 80    80 or More

                                                                                    Hours



             Source: TIGTA analysis of time and attendance records, as of February 2008.




                                                                                                                                Page 2
                     To Prevent the Possible Widespread Abuse of Religious
                      Compensatory Time, Additional Controls Are Needed




The vast majority of IRS employees have reasonable RCT balances. In fact, 91 percent of the
employees have balances between -40 and 40 hours. Interestingly, we found that the states of
New York and Pennsylvania account for approximately 56 percent of all employees with RCT
balances.

Further, about 83 percent of the employees with the highest RCT balances (a positive or negative
balance of 80 hours or more) are located in New York and Pennsylvania. We also found
numerous units in these two states where at least half of the employees had RCT balances and in
many cases the unit managers also had RCT balances. While we believe the majority of the
employees used RCT in accordance with the established regulations and guidance, our review
indicates a small number of IRS employees may be using RCT for unintended purposes.

Some Employees Have Accumulated Excessive Positive and Negative
Religious Compensatory Time Balances, Increasing the Risk of Abuse
Both the Office of Personnel Management (OPM) and the IRS have issued guidance on the
accumulation and use of RCT. OPM stipulates that employees should be allowed to accumulate
only the number of hours needed to make up for previous or anticipated absences from work for
religious observances. IRS guidance further states that employees should not accumulate more
RCT than they would be expected to use within 120 days. However, neither the OPM nor the
IRS established a definition for an amount to be deemed excessive. For the purposes of this
review, we define an excessive balance as 80 hours or more, which is a 2-week period, or one
pay period.
As mentioned previously, the IRS has been aware that some employees might have accumulated
RCT and not used it as intended. In March 2006, 42 employees were identified with RCT
balances between 101 and 305 hours, and 1 employee had a negative balance of 170.75 hours.
We found that 42 percent of these employees still had excessive balances as of February 2008.
In fact, for 28 percent of these employees, their RCT balances remained the same or actually
increased.
From the total of 2,764 employees with a RCT balance as of February 2008, we considered 86
employees to have had excessive RCT balances. Many of these balances had been outstanding
nearly 2 years, and in two cases the balances had been outstanding over 6 years.
We selected 25 of the 86 employees with the most excessive balances for detailed review. The
25 consisted of 15 employees with positive RCT balances that ranged from 137 to 537.5 hours,
and 10 employees with negative RCT balances that ranged from 98 to 224 hours. We believe
that many of these employees may be using RCT to receive large lump sum payments upon
retirement or separation from the IRS, or as a substitute for sick leave. Additionally, IRS
employees in the AWSS informed us that some employees may be using RCT to circumvent
statutory pay limitations.

                                                                                         Page 3
                           To Prevent the Possible Widespread Abuse of Religious
                            Compensatory Time, Additional Controls Are Needed




Positive religious compensatory time may have been earned to be used for large
lump sum payments
We believe that 13 of 15 employees with the highest positive RCT balances could be
accumulating those balances for large lump sum payments. The IRS must pay employees for
unused RCT at the rate of pay in effect when the employee earned the RCT. If the 13 employees
separated or retired, the IRS would have to pay them a total of approximately $124,921.2
Figure 2 shows the amount each of them would have received.
            Figure 2 Distribution of Religious Compensatory Time Balances
                                                          Ending Balance in     Number of Days
                 Case Number        Possible Payment
                                                          Hours (July 2008)      Outstanding
                       1                 $21,285                537.5               374 days
                       6                 $13,465                 242            At least 6 years
                       4                 $13,164                 244            At least 6 years
                       2                 $10,825                 485                139 days
                       9                 $10,556                199.5               727 days
                       5                 $10,266                 218                559 days
                      11                  $9,557                 146                727 days
                       8                  $8,264                 181                727 days
                       3                  $6,763                 303                139 days
                      10                  $6,098                 154                364 days
                      15                  $5,779                 137                727 days
                      13                  $5,055                 153                727 days
                      12                  $3,844                163.5               727 days
                  Total Possible
                                        $124,921
                         Payout
            Source: TIGTA analysis detailed time and attendance records.

While the amount shown in Figure 2 is what the IRS might have to pay, the IRS did owe
approximately $127,300 to 116 employees who separated from the IRS with a combined total of
3,024 hours of unused RCT over a 2-year period ending June 2008.



2
 The possible lump sum payments are calculated based on each employee’s pay grade and step 5 as of calendar year
2008.
                                                                                                        Page 4
                           To Prevent the Possible Widespread Abuse of Religious
                            Compensatory Time, Additional Controls Are Needed




These balances accumulated because, unlike some other agencies, the IRS did not limit how far
in advance of a religious observation the compensatory time could be earned. Several Federal
agencies limit how far in advance the RCT can be earned, thereby limiting the total amount
accrued.
This also occurred because there seems to have been little effort by a few second level managers
to question these large balances and to hold first level managers accountable for effectively
managing the use of RCT. We base our opinion on the mixed response to the March 2006 notice
of possible misuse and because IRS supervisors and managers are required to complete a self-
assessment annually as part of the IRS’s effort to comply with the Federal Managers’ Financial
Integrity Act.3 Among other things, the Act requires agencies to attest that they have adequate
controls to reasonably ensure that “… funds, property, and other assets are safeguarded against
waste, loss, unauthorized use or misappropriation…” If such controls had been in place, it is
unlikely employees would have built up such large balances.

Negative religious compensatory balances have not been timely resolved, and
some may have been used as a substitute for sick leave
IRS policies require employees to repay advanced RCT within a reasonable period of time
(generally 120 days) and, if it is not repaid in that period, the leave will be converted to annual
leave or leave without pay. An official in the Human Capital Office acknowledged that
organizationally they have not routinely enforced this requirement but plan to do so in the future.
A very probable effect of not enforcing this requirement is that some employees have been
allowed to receive paid overtime, regular compensatory time, and credit hours while still owing
large advanced RTC balances. Employees generally receive 1.5 times their basic hourly pay rate
for each overtime hour worked, while they may earn regular compensatory time in lieu of paid
overtime on an hour for hour basis. Credit hours allow employees under flexible work schedules
to be absent for an equal number of hours worked. In our review of the 10 employees with
excessive negative RCT balances we determined:
•     One employee worked 588 credit hours during the 2-year period we reviewed and still owed
      the IRS 100 hours of advanced RCT.
•     A second employee received overtime pay for 462 extra hours worked during the same
      period and owed 145.2 hours of RCT.
•     A third employee worked 262 credit hours during the same period and owed 81 hours of
      RCT.
•     Finally, a fourth employee received 33 hours of regular compensatory time for extra hours
      worked and owed the IRS 105 hours of RCT at the end of the 2-year period.

3
    Federal Managers’ Financial Integrity Act of 1982, 31 U.S.C. §§ 1105, 1113, 3512 (2000).


                                                                                               Page 5
                       To Prevent the Possible Widespread Abuse of Religious
                        Compensatory Time, Additional Controls Are Needed




The IRS does not have specific policies to prevent employees from applying extra hours worked
to overtime, regular compensatory time, or credit hours, instead of paying back advanced RCT.
At the same time, some employees appear to be using RCT as a substitute for sick leave. We
reviewed the time and attendance records for the 10 IRS employees with the highest advanced
RCT balances. We found that IRS managers authorized advanced RCT for 9 of 10 employees
who had little to no sick leave balances. Because of the correlation between the low sick leave
balances and the authorization of advanced RCT, we concluded the employees used RCT in lieu
of sick leave. In two cases, employees received advanced RCT after using nearly all of their sick
leave and being on leave without pay for 27 hours and 80 hours, respectively. Neither employee
had repaid any of the RCT advanced to them as of July 2008.4
We believe the managers authorized advanced religious compensatory to these employees in
order to provide some relief for employees suffering from long-term medical problems.
Nevertheless, other administrative options are available for employees in such situations, and
RCT should not be used for this purpose.
A possible unintended consequence of this is that employees who use advanced RCT in place of
sick leave can accumulate large negative balances in a short period of time. In one case, an
employee accumulated 224 hours in 7 weeks. Another employee accumulated an advanced RCT
balance of 120 hours in 4 weeks. Accumulating such high balances in a short period of time
increases the likelihood that the advanced balances will not be repaid.
A prior TIGTA audit of IRS employees’ use of sick leave 5 determined that some managers were
not aware of all the regulations concerning the proper use of leave. In that audit, TIGTA
recommended that managers receive training on leave policies to ensure proper sick leave
administration and to increase awareness of possible abuse.
Religious compensatory time may have been used to circumvent pay restrictions
Employees from the IRS Payroll Center reported that some employees may use RCT to
circumvent policies that limit pay. With few exceptions, an employee may not be paid premium
pay (overtime or regular compensatory time) if the payment will cause the total of his or her
basic pay and premium pay to exceed the maximum rate for a GS-15 Step 10 during any pay
period.
In one case in our sample, an IRS executive charged 19.5 hours to regular compensatory time for
the first four pay periods of employment with the IRS in 2006. However, the pay plan for the
employee did not allow the employee to earn regular compensatory time. After the error was
noted by the National Finance Center, the time charged to regular compensatory time was
changed to RCT. The employee continued to earn RCT in subsequent pay periods. During the

4
 As of pay period 13 in 2008.
5
 Lack of Compensation for Unused Sick Leave at Retirement Has Contributed to Higher Use by Employees in the
Federal Employees Retirement System (Reference: Number 2008-30-093, dated April 24, 2008).
                                                                                                     Page 6
                          To Prevent the Possible Widespread Abuse of Religious
                           Compensatory Time, Additional Controls Are Needed




2-year period of our review, the employee earned 148 hours of RCT, but only used 84 hours. In
fact the employee did not use any RCT between December 2007 and July 2008 (approximately
seven months).6
While the initial charges to regular compensatory time may have been posted in error, it seems
that changing the compensatory time to RCT and the subsequent continued practice of earning
RCT and taking very little time off may have been an effort to circumvent the pay limitations.
IRS employees in the payroll center agreed with our conclusion, and noted the existence of other
cases with similar characteristics. The IRS cannot effectively control the salaries of senior
officials and executives if some employees circumvent pay limitations by erroneously recording
premium pay as RCT.

Internal Revenue Service Staff are Acting to Address These Issues,
But More Actions Should be Considered
In March 2008, the IRS formed a task force to develop guidance related to managerial
responsibilities for the administration of RCT. The task force met throughout the year and has
developed and issued some revised procedures to address many of the RCT issues we have
highlighted in this report.
In June 2008, the group issued requirements that state that an employee and his or her manager
must establish a plan (generally for 120 calendar days) that documents the RCT that will either
be worked in advance of the requested time off for the religious observance, or worked after the
time off is taken for the religious observance. The plan should show the dates and times the
employee is requesting to be absent for the religious observance(s) and the dates and times the
employee will work to repay the RCT used. Further, an employee will be permitted to
accumulate only the hours of work needed for anticipated absences from work for religious
observances that are planned in the near future (normally within 120 days). While we believe
these procedures will provide added control, we believe any request for RCT should be formally
documented and other control procedures require some additional strengthening.

Recommendations
The IRS Human Capital Office is responsible for IRS-wide policies related to employee pay and
benefits. Therefore, the IRS Human Capital Officer should:

Recommendation 1: Ensure that all IRS managers and employees receive training on IRS
time and attendance policies related to all types of leave to increase awareness of possible abuse
and ensure proper administration of not only RCT, but all other types of leave and hours of duty.


6
    We reviewed time reports through July 2008.
                                                                                           Page 7
                     To Prevent the Possible Widespread Abuse of Religious
                      Compensatory Time, Additional Controls Are Needed




This training should also reference supervisors’ and managers’ Federal Managers’ Financial
Integrity Act responsibilities.

       Management’s Response: IRS management agreed with the recommendation and
       will revise its policies related to the use of RCT, leave, hours of duty and managers
       Federal Managers’ Financial Integrity Act responsibilities as it relates to these issues.
       The IRS will develop a multi-prong approach expected to include developing web-based
       guidance and training to ensure managers, employees and timekeepers understand the
       revised policies.

       Office of Inspections and Evaluations Comment: Although the IRS does not
       propose formal classroom training, we believe the multi-pronged approach to include
       web-based guidance and training is a reasonable alternate approach.

Recommendation 2: Modify IRS RCT procedures to require that all requests for RCT be
submitted in writing before any RCT is earned or taken. The request should include:
   1. the dates and number of hours requested
   2. a brief explanation of the personal belief that requires the employee to abstain from work
      at the time requested
   3. the dates and times the employee will repay the hours used
       Management’s Response: IRS management agreed with the recommendation and
       will require employees to submit written requests for RCT with the pertinent information.
In September 2008, the group issued managerial guidance that states that, if an employee has a
positive RCT balance, the employee’s manager should not approve additional RCT until the
positive balance is used or scheduled for use. Additionally, employees should preferably use
positive RCT balances within 120 days. If the balance cannot be used within 120 days, every
effort should be made to use the balance within 1 year. Again, while we believe these are steps
in the right direction, we believe more should be done.

We further recommend that the IRS Human Capital Officer:

Recommendation 3: Strengthen the procedures to require that managers not allow employees
with existing positive RCT balances to accumulate additional RCT, unless they provide the
required written request and then allow them to earn enough time only to cover the specific
observance in the request.

       Management’s Response: IRS management agreed with the recommendation and
       will revise its policies to emphasize additional RCT may not be approved if existing RCT
       balances have not been used, repaid, or scheduled for use or repayment.

                                                                                          Page 8
                     To Prevent the Possible Widespread Abuse of Religious
                      Compensatory Time, Additional Controls Are Needed




 Recommendation 4: Modify the IRS RCT procedures to require that advanced RCT
balances must be repaid before approving employees’ voluntary requests to earn overtime,
compensatory time, or credit hours.

       Management’s Response: IRS management agreed with the recommendation and
       will also incorporate this requirement in the Internal Revenue Manual.

Finally, we recommend that the IRS Human Capitol Officer and the Chief, AWSS:

Recommendation 5: Formalize a procedure to have the AWSS staff produce a semiannual
listing of employees with RCT balances that are excessive or have not decreased within that
6 month review period. The list should be provided to the senior executive of each operating
division and business unit. Within 60 days of receiving the list, each senior executive will
provide a report to the IRS Human Capital Officer on steps to be taken to ensure that managers
prepare plans to address the excessive balances.

       Management’s Response: IRS management agreed with the recommendation.
       AWSS staff will prepare a semiannual listing in accordance with the recommendation.
       The senior executive of each operating division and business unit will retain oversight
       and ensure adequate controls are in place to address excessive RCT balances. However,
       the senior executives will not report corrective actions to the IRS Human Capital Officer.

       Office of Inspections and Evaluations Comment: Although the IRS does not
       plan to require senior executives to report corrective actions to the IRS Human Capital
       Officer, we believe that if senior executives provide the expected oversight by ensuring
       the revised policies are followed and if they ensure actions are taken to address large
       balances, those actions should address the issues we identified.




                                                                                           Page 9
                     To Prevent the Possible Widespread Abuse of Religious
                      Compensatory Time, Additional Controls Are Needed




                                                                                 Appendix I

        Detailed Objective, Scope, and Methodology


The overall objective was to determine whether employees have accrued large religious
compensatory time (RCT) balances or received large advances of RCT beyond the intended legal
purpose. To accomplish this objective we:

 I.   Determined whether the IRS had adequate policies and procedures in place to ensure that
      employees do not accumulate excessive RCT balances.

      A. Reviewed IRS policies and procedures related to earning and using RCT to determine
         whether the policies provide sufficient guidance for IRS employees and managers.

      B. Interviewed officials from the IRS Human Capital Office and determined whether the
         IRS had adequate procedures in place to ensure that employees who retire or separate
         from the government with positive RCT balances are paid based on the pay grade
         applicable when the compensatory time was earned.

II.   Determined whether IRS employees with excessive RCT balances appear to be using RCT
      for unintended purposes.

      A. Determined how many IRS employees had excessive RCT balances.

      B. Determined whether employees with excessive RCT balances appeared to be using
         RCT for unintended purposes. We identified 86 employees with excessive RCT
         balances. From this population, we selected the 15 employees with the highest positive
         RCT balances and the 10 employees with the lowest negative RCT balances. We
         reviewed the detailed time and attendance records for all 25 employees through July
         2008.

      C. Determined the financial impact of IRS employees who retired or left with excessive
         religious compensatory balances.




                                                                                       Page 10
                     To Prevent the Possible Widespread Abuse of Religious
                      Compensatory Time, Additional Controls Are Needed




                                                                            Appendix II

                  Major Contributors to This Report
Philip Shropshire, Director, Office of Inspections and Evaluations
Kevin P. Riley, Assistant Director, Office of Inspections and Evaluations
James A. Douglas, Senior Auditor




                                                                                 Page 11
                   To Prevent the Possible Widespread Abuse of Religious
                    Compensatory Time, Additional Controls Are Needed




                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief Counsel CC
National Taxpayer Advocate TA
Chief, Agency-wide Shared Services OS:A
IRS Human Capital Officer OS:HC
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC




                                                                       Page 12
      To Prevent the Possible Widespread Abuse of Religious
       Compensatory Time, Additional Controls Are Needed




                                                   Appendix IV

Management’s Response to the Draft Report




                                                          Page 13
To Prevent the Possible Widespread Abuse of Religious
 Compensatory Time, Additional Controls Are Needed




                                                    Page 14
To Prevent the Possible Widespread Abuse of Religious
 Compensatory Time, Additional Controls Are Needed




                                                    Page 15
To Prevent the Possible Widespread Abuse of Religious
 Compensatory Time, Additional Controls Are Needed




                                                    Page 16
